            ACQUISITION OF THE AIRBORNE LASER
                 MINE DETECTION SYSTEM


Report No. D-2001-111                  May 02, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ALMDS                 Airborne Laser Mine Detection System
CNA                   Center for Naval Analyses
                       Office of the Inspector General, DoD
Report No. D-2001-111                                                   May 2, 2001
  (Project No. D2000AE-0242)

        Acquisition of the Airborne Laser Mine Detection System

                                Executive Summary

Introduction. The Airborne Laser Mine Detection System is a mine countermeasure
that is intended to detect, classify, and localize floating or moored sea mines that are
near the surface. The Navy will deploy the Airborne Laser Mine Detection System on
MH-60S helicopters to provide organic airborne mine defense for Carrier Battle Groups
and Amphibious Ready Groups. The Navy will use this capability in littoral zones,
confined straits, choke points, and the amphibious objective area. The system is
portable and transferable and represents a capability that does not exist in the Navy’s
mine countermeasures inventory. The program office estimates that the system will
cost $167.2 million for research, development, test and evaluation and $206.7 million
for procurement. The Navy Acquisition Executive is the milestone decision authority
for this Acquisition Category II program.

Objectives. The audit objective was to evaluate the overall management of the
Airborne Laser Mine Detection System. Because the program was in the engineering
and manufacturing development phase, we determined whether management was cost-
effectively developing and readying the system for the full-rate production phase of the
acquisition process. In addition, we evaluated the management control program as it
related to our audit objective.

Results. Overall, the Airborne Laser Mine Detection System program office was cost-
effectively developing and readying the program for the full-rate production phase.
However, one area warrants management attention before the program enters full-rate
production. The Deputy Chief of Naval Operations (Resources, Warfare Requirements
and Assessments) had to use assumptions concerning related acquisition programs to
determine the number of Airborne Laser Mine Detection System units needed to satisfy
Navy requirements. Until the Navy firms up requirements and tactics for related
acquisition programs and assesses the feasibility of transferring Airborne Laser Mine
Detection Systems between deployed and nondeployed ships, the Navy will not be able
to ensure, through programming and budgeting, that Airborne Laser Mine Detection
System production requirements remain fully funded in the Future Years Defense
Program. For details of the audit results, see the Finding section of the report. The
management controls that we reviewed were effective in that no material management
control weakness was identified. See Appendix A for details on the management
control program.
Summary of Recommendations. We recommend that the Deputy Chief of Naval
Operations (Warfare Requirements and Programs), before the full-rate production
decision scheduled for the second quarter, FY 2004, firm up requirements for the
Airborne Laser Mine Detection System by:

       •   Reassessing and validating the assumptions associated with related
           acquisition programs and other mine countermeasure systems used to
           determine requirements for the Airborne Laser Mine Detection System.

       •   Determining the viability and cost-effectiveness of transferring, or
           cross-decking, Airborne Laser Mine Detection System assets between
           deployed and nondeployed ships.

Management Comments. We received comments from the Deputy Chief of Naval
Operations (Warfare Requirements and Programs). The Deputy Chief partially
concurred with the finding and concurred with the intent of the recommendations to
review and revalidate requirements for the Airborne Laser Mine Detection System
before the full-rate production decision scheduled for the second quarter, FY 2004. As
part of the revalidation process, the Deputy Chief stated that the Navy will examine the
potential cost-effectiveness of cross-decking the system between deployed and
nondeployed ships. A discussion of the management comments is in the Finding
section and Appendix E of the report, and the complete text is in the Management
Comments section.




                                           ii
Table of Contents

Executive Summary                                                   i


Introduction
     Background                                                    1
     Objectives                                                    1
     Airborne Laser Mine Detection System Generally Well Managed   2

Finding
     Requirements Generation                                       3

Appendixes
     A. Audit Process
          Scope                                                    10
          Methodology                                              11
          Management Control Program Review                        11
          Prior Coverage                                           11
     B. Definitions of Technical Terms                             12
     C. Airborne Mine Countermeasure Systems                       13
     D. Carrier Groups and Amphibious Groups                       14
     E. Audit Response to Navy Comments Concerning the Report      15
     F. Report Distribution                                        18

Management Comments
     Deputy Chief of Naval Operations (Warfare Requirements and
       Programs)                                                   20
Background
     Operations Desert Storm and Desert Shield demonstrated the need for
     minehunting systems as an integral element of deployed forces. As a result, the
     Navy began developing a suite of five airborne mine countermeasure systems to
     negate the identified threat. One of the systems, the Airborne Laser Mine
     Detection System (ALMDS), is a mine countermeasure that is intended to
     detect, classify, and localize floating and near-surface moored sea mines. The
     Navy will deploy the ALMDS on MH-60S helicopters to provide organic
     airborne mine defense for Carrier Battle Groups (Carrier Groups), and
     Amphibious Ready Groups (Amphibious Groups). The Navy will use this
     capability in littoral zones, confined straits, choke points, and the amphibious
     objective area. The ALMDS laser is fired into the water and cameras on the
     ALMDS pod capture water reflections to create images. Although the depth
     that the laser can penetrate and provide quality feedback is limited, the ALMDS
     can detect surface mines that the AN/AQS-20X Sonar is not designed to detect.
     The ALMDS is portable and transferable and represents a capability that does
     not exist in the Navy’s mine countermeasure inventory. The program office
     estimates that the system will cost $167.2 million for research, development,
     test, and evaluation and $206.7 million for procurement.

     The Navy Acquisition Executive approved the ALMDS for entry into the
     engineering and manufacturing development phase of the acquisition process on
     April 18, 2000. At that time, the Navy Acquisition Executive ensured that the
     ALMDS production quantities were fully funded based on the best information
     available. The Navy plans to hold the full-rate production decision review for
     the ALMDS in the second quarter of FY 2004. The ALMDS is an acquisition
     category II program. Appendix B provides definitions of technical terms used
     in this report.

Objectives
     The audit objective was to evaluate the overall management of the Airborne
     Laser Mine Detection System. Because the program was in the engineering and
     manufacturing development phase, we determined whether management was
     cost-effectively developing and readying the system for the full-rate production
     phase of the acquisition process. In addition, we evaluated the management
     control program as it related to the audit objective. See Appendix A for a
     discussion of the audit scope and methodology, the review of the management
     control program, and prior coverage related to the audit objectives.




                                         1
Airborne Laser Mine Detection System Generally Well
  Managed
    Overall, the program office was cost-effectively developing and readying the
    program for the full-rate production phase. Specifically:

       •   The program office used integrated product teams to ensure open
           communication between the contractors and DoD organizations. The
           integrated product teams, as evidenced in meeting minutes, were
           effective forums for sharing information and identifying and tracking
           issues. The integrated product team members included representatives
           from various DoD organizations as well as contractors and
           subcontractors. ALMDS issues addressed at these meetings included
           system integration, system and electronic interfaces, risk management,
           program accomplishments and plans, operational requirements
           documents, test plans, schedule delays, and the availability of helicopters
           for testing.

       •   The program office established an effective risk management program.
           An ALMDS working group, which consisted of program office and
           contractor personnel, identified, analyzed, assessed, and monitored risks
           associated with the program. The ALMDS working group used a
           software database to track the resolution of identified risk items. The
           database included a description of the risk item, risk mitigation plans,
           status of risk item resolution, risk rating (high, medium, low), and
           person(s) responsible for managing the resolution of the identified risk
           item. Meeting quarterly, the ALMDS working group discussed open
           and closed risk items, identified changes in the ALMDS program and
           other related programs that might affect the resolution of the risk items,
           and kept the software database up-to-date.

       •   The prime contractor provided the program office with real-time access
           to program documentation and an open forum for discussions through an
           Internet-based program. The Internet-based program linked the prime
           contractor to the program office; the Naval Surface Warfare Center,
           Coastal Systems Station; and the subcontractors. Through the real-time
           program, the prime contractor tracked system requirements in the
           ALMDS requirements documents to system design requirements
           generated by the prime contractor and to contractor test plans to ensure
           that ALMDS technical and performance requirements were verified
           through testing.

    However, one condition warranted management action before the program
    enters full-rate production. A discussion of the associated finding follows.




                                        2
                    Requirements Generation
                    The Deputy Chief of Naval Operations (Resources, Warfare
                    Requirements and Assessments)1 had to use assumptions concerning
                    related acquisition programs to determine the number of ALMDS units
                    needed to satisfy Navy requirements. This condition occurred because
                    the capabilities and deployment tactics of the ALMDS, the deployment
                    platform (MH-60S helicopter), and related mine countermeasure
                    acquisition programs affecting the number of ALMDS units needed,
                    were not yet finalized. Also, the Deputy Chief of Naval Operations
                    (Resources, Warfare Requirements, and Assessments) had not evaluated
                    the feasibility and cost-effectiveness of transferring, or cross-decking,
                    ALMDS units among Navy deployed and nondeployed ships to reduce
                    ALMDS requirements. Until the Navy firms up requirements and tactics
                    for related acquisition programs and assesses the feasibility of
                    transferring Airborne Laser Mine Detection Systems between deployed
                    and nondeployed ships, the Navy will not be able to ensure, through
                    programming and budgeting, that ALMDS production requirements
                    remain fully funded in the Future Years Defense Program.

Full-Funding Policy
           DoD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
           Acquisition Programs (MDAPs) and Major Automated Information System
           (MAIS) Acquisition Programs,” Change 4, May 11, 1999,2 and Secretary of the
           Navy Instruction 5000.2B, “Implementation of Mandatory Procedures for Major
           and Non-Major Defense Acquisition Programs and Major and Non-Major
           Information Technology Acquisition Programs,” December 6, 1996, define
           requirements for full funding of acquisition programs at program initiation. The
           DoD Regulation and Navy Instruction both require the milestone decision
           authority to assess affordability at each milestone decision point beginning with
           program initiation. Further, the Regulation and Instruction require that the
           milestone decision authority not approve an acquisition program to proceed
           beyond program initiation unless sufficient resources, including staffing, are
           programmed in the most recently approved Future Years Defense Program, or
           will be programmed in the next Program Objectives Memorandum, Budget
           Estimate Submission, or President’s Budget.




1
    Effective October 1, 2000, the Deputy Chief of Naval Operations (Resources, Warfare Requirements,
    and Assessments) office was divided into the offices of the Deputy Chief of Naval Operations (Warfare
    Requirements and Programs) and the Deputy Chief of Naval Operations (Resources, Requirements, and
    Assessments)
2
    Interim DoD Regulation 5000.2-R, issued January 1, 2001, contains the same full-funding requirements
     for acquisition programs.

                                                     3
Requirement for ALMDS
    During Operations Desert Shield and Desert Storm, the Navy relied upon
    dedicated mine countermeasure assets to detect, classify, and localize sea mines.
    The time required for the arrival of these dedicated assets, however,
    demonstrated the need for the Carrier and Amphibious Groups to have an
    organic mine countermeasure capability. Subsequently, the Navy addressed the
    need in a mission need statement and an operational requirements document for
    the ALMDS.

    Mission Need Statement. In October 1993, the Deputy Chief of Naval
    Operations (Resources, Warfare Requirements, and Assessments) approved a
    mission need statement for mine countermeasures that laid the foundation for the
    ALMDS program. The mission need statement presented several alternatives to
    address the need for mine countermeasures. As a result, the Navy is developing
    the ALMDS as one of a suite of five airborne mine countermeasure systems.
    The remaining four systems, the AN/AQS-20X Sonar, the Organic Airborne
    and Surface Influence Sweep, the Airborne Mine Neutralization System, and the
    Rapid Airborne Mine Clearance System, are in the program definition and risk
    reduction phase of the acquisition process. A brief description of the four
    systems is included at Appendix C.

    The suite of systems will provide organic mine identification and neutralization
    for specific threats based on the depth of the mine, the density of the minefield,
    and the conditions of the surrounding water. Specifically, ALMDS and the
    AN/AQS-20/X Sonar are both mine identification systems. ALMDS will be
    used at near-surface depths where the AN/AQS-20/X Sonar is not designed to
    detect mines. Working together, these two systems will identify moored and
    bottom mines. The Organic Airborne and Surface Influence Sweep will be used
    where environmental limitations would make mine hunting difficult. For mine
    neutralization purposes, the Rapid Airborne Mine Clearance System will be
    used to neutralize near-surface mines detected by ALMDS. The Airborne Mine
    Neutralization System will be used to neutralize mines below the surface and
    outside the range of the Rapid Airborne Mine Clearance System.

    Operational Requirements Document. In July 1998, the Deputy Chief of
    Naval Operations (Resources, Warfare Requirements, and Assessments)
    approved the operational requirements document for the ALMDS. The ALMDS
    is intended to fulfill the stated need for the rapid detection, laser image
    classification, and localization of drifting, floating, and near-surface moored
    mine threats for avoidance by the Carrier and Amphibious Groups and other
    strategic vessels in transit. As of February 2001, the Navy supported 12 aircraft
    carriers and 11 large deck amphibious ships. Appendix D discusses the
    composition and availability of the Carrier and Amphibious Groups that will use
    the ALMDS.




                                        4
ALMDS Requirements Determination
            Requirements Study. At the request of the Deputy Chief of Naval Operations
            (Resources, Warfare Requirements, and Assessments), the Center for Naval
            Analysis (CNA), a federally funded research and development organization,
            performed a mine countermeasure study to ensure that programming plans and
            strategies for evolving organic mine countermeasure systems were quantitatively
            balanced against future warfighting requirements. In June 1999, CNA
            published its study, “MCM [Mine Countermeasures] Force-21 Study Final
            Results.” The study stated that the Navy and Marine Corps needed 42 ALMDS
            units to fulfill the requirements stated in Table 1.

                                         Table 1. ALMDS Requirements


                     Carrier and Amphibious Groups                                             28

                     Carrier and Amphibious Group Surge3 Capability                            6

                     Shore Rotation                                                            2

                     Fleet Readiness Squadron                                                  2

                     Supply Pipeline                                                           4

                       Total                                                                  42

            Study Assumptions. The CNA provided extensive support and explanations for
            its ALMDS requirement calculations. However, CNA had to base its
            requirement calculations, in part, on assumptions about the capabilities of
            related mine countermeasure systems in development, MH-60S helicopter
            deployment tactics, worst-case warfighting scenarios, and use of ALMDS on
            Amphibious Groups.

                    Capabilities of Related Mine Countermeasure Systems. The number
            of ALMDS units needed by the Navy is based, in part, on the capabilities of
            related systems, such as the AN/AQS-20/X Sonar, the Organic Airborne and
            Surface Influence Sweep, the Airborne Mine Neutralization System, and the
            Rapid Airborne Mine Clearance System. The number of ALMDS that are
            needed vary depending on how well the other mine countermeasure systems in
            this suite satisfy their stated operational requirements. For example, if one or
            more of the other countermeasure systems cannot meet the minimum operational
            requirements that the Navy has established, the Navy may need additional
            ALMDS units to mitigate the impact of that performance degradation on Carrier
            or Amphibious Group operations support.



3
    Surge is the ability to deploy a concentrated quantity of follow-on assets in a relatively short time.

                                                         5
As defined in DoD Regulation 5000.2-R, a threshold value represents a system’s
minimum acceptable performance requirements. An assumption used by CNA
to determine the number of ALMDS units needed was that the four related
countermine systems under development, as well as the MH-60S helicopter,
would meet their threshold performance requirements. That assumption is
understandable because the systems are in development. Accordingly, ALMDS
requirement quantities will need to be reassessed as the related mine
countermeasure systems mature, their designs stabilize, their deployment tactics
are determined, and decisions are made to produce the related systems. For
example, if the Organic Airborne and Surface Influence Sweep program does
not meet its threshold performance requirements, the number of ALMDS and
AN/AQS-20/X Sonar units required may increase because of the additional time
that would be required to detect and identify mines where environmental
limitations make mine hunting difficult.
         MH-60S Helicopter Deployment Tactics. The MH-60S helicopter is
currently in development. The MH-60S program office has scheduled a full-
rate production decision review in October 2001, with an initial operational
capability in December 2001. As the planned platform for ALMDS and the
other four airborne mine countermeasure systems, the MH-60S helicopter will
be deployed on specific ships within Carrier and Amphibious Groups to meet
the organic mine countermeasure requirement. The CNA assumed a specific
number of MH-60S helicopters would be assigned to each Carrier and
Amphibious Group; however, the deployment tactics of the MH-60S helicopters
are still in development. The Deputy Chief of Naval Operations (Resources,
Warfare Requirements, and Assessments) described three scenarios for the use
of ALMDS-equipped helicopters, including a single helicopter covering an
entire area, two helicopters covering separate areas, or two helicopters covering
an area in a grid-like pattern. The decision on the deployment of the MH-60S
helicopters will impact the number of helicopters used for mine countermeasure
missions and the number of ALMDS units needed. Also, there are competing
missions for the MH-60S helicopter, including vertical replenishment and search
and rescue. Consequently, the number of ALMDS units needed to support the
requirements of Carrier and Amphibious Group Commanders cannot be
accurately calculated until decisions are made on MH-60S helicopter deployment
tactics and mission priorities.

        Worst-Case Warfighting Scenarios. When given a variety of possible
options for interpreting a warfighting situation, CNA assumed the worst-case
scenario to provide the best protection for the fleet. For example, CNA made
an assumption about the number of mines laid in a strategic port. Three
scenarios ranging from the absence of mines to mining the entire port were
considered. The CNA assumed that the entire port would be mined because it
provided the best protection for the fleet. Also, although the allied and coalition
forces were recognized as being able to supply mine countermeasure assistance,
the study assumed that allied and coalition force assistance would be limited and
that the Navy would have to perform mine countermeasure operations alone.
Although this conservative approach is valid for individual scenarios, the
Deputy Chief of Naval Operations (Resources, Warfare Requirements, and
Assessments) would have been better served had the probability of the
worst-case scenarios occurring simultaneously been provided for his
consideration in making decisions concerning ALMDS requirements. With this


                                     6
    information, the Deputy Chief of Naval Operations (Resources, Warfare
    Requirements, and Assessments) would have had more realistic information on
    which to decide ALMDS requirements.

            Use of ALMDS on Amphibious Groups. The CNA assumed that the
    Marine Corps would support the use of ALMDS assets on Amphibious Group
    vessels. However, the Marine Corps had not committed to support ALMDS
    assets.

Deployment Options
    The Navy will deploy ALMDS aboard ship and mount it to specially configured
    MH-60S helicopters, as needed, to provide Group Commanders with organic
    airborne mine defense. The Office of the Deputy Chief of Naval Operations
    (Plans, Policy, and Operation) stated that, in a process known as cross-decking,
    the Navy routinely transfers limited assets between deployed and nondeployed
    platforms to conserve resources.

    The Air Force uses the cross-decking concept for aircraft mounted sensors that
    are assigned to air wings, just as the ALMDS will be used on helicopters and
    assigned to MH-60S squadrons. Specifically, the Low Altitude and Targeting
    Infrared for Night program used cross-decking as an option in the early stages
    of production when the number of assets was limited. As the number of assets
    grew, the Air Force no longer needed to physically remove assets from one
    platform to another. However, the Air Force still removes assets from
    nondeployed platforms to create a pool of assets for use on deployed platforms.
    In addition, the Air Force still cross-decks the support equipment for those
    assets because it is very costly to outfit every platform with support equipment.
    Similarly, the Air Force, for the Tactical Airborne Reconnaissance Pod System,
    cross-decks assets from nondeployed to deployed platforms. Cross-decking
    assets does not have a negative impact on the readiness of the Air Force to
    perform its mission.

    Although CNA considered cross-decking in its study to transfer ALMDS assets
    within Carrier and Amphibious Groups, CNA did not consider transferring
    ALMDS assets between deployed and nondeployed ships.

    Peacetime Deployment and Wartime Contingencies. During peacetime, three
    Carrier Groups are routinely deployed. One Carrier Group is permanently
    stationed in Japan, and the other two are deployed from the East and West
    coasts of the United States. The Carrier Groups are deployed in a
    three-Carrier-Group rotation, with 6 months deployed, 6 months in maintenance
    and resupply, and 6 months in preparation for the next deployment. The
    Amphibious Groups follow the same deployment rotation as the Carrier Groups
    during peacetime. The peacetime deployment schedule is shown in Table 2.




                                        7
                      Table 2. Peacetime Deployment Schedule

                                           Carrier Groups     Amphibious Groups

     Forward Deployed–Japan                      1                     1

     East Coast
       Forward Deployed                          1                     1
       Maintenance and Resupply                  1                     1
       Preparation for Deployment                1                     1

     West Coast
      Forward Deployed                           1                     1
      Maintenance and Resupply                   1                     1
      Preparation for Deployment                 1                     1

        Total                                    7                     7

    In the event of two, near simultaneous major theater wars, the Navy plans to
    deploy all available Carrier and Amphibious Groups. However, when those
    assets are mobilized, the Navy may not need all Carrier and Amphibious Groups
    to have organic mine countermeasure capabilities. After forward-deployed ships
    have cleared an initial path through a mined area, other dedicated mine
    countermeasure ships, such as the USS Gladiator, the USS Guardian, or the
    USS Cardinal, will arrive to take over the specialized mission. Because of the
    limited peacetime deployment of Carrier and Amphibious Groups and the use of
    dedicated mine countermeasure ships, the Navy needs to determine the
    feasibility and cost-effectiveness of cross-decking ALMDS assets to enable the
    Navy to use available resources for other higher priority requirements
    capabilities.

Summary
    When the Navy Acquisition Executive made the decision for the ALMDS to
    enter the engineering and manufacturing phase of the acquisition process in
    April 2000, he used the best available information concerning the number of
    ALMDS units required in determining whether the ALMDS program was fully
    funded in the Future Years Defense Program. However, until requirements and
    tactics for related mine countermeasure acquisition programs are firmed up and
    the feasibility of transferring ALMDS units between deployed and nondeployed
    ships is assessed, the Navy will not be able to ensure, through programming and
    budgeting, that ALMDS production requirements remain fully funded in the
    Future Years Defense Program.

Management Comments on the Finding and Audit Response
    A summary of management comments on the finding and our responses are in
    Appendix E.


                                       8
Recommendations and Management Comments
    We recommend that the Deputy Chief of Naval Operations (Warfare
    Requirements and Programs), before the full-rate production decision
    scheduled for the second quarter of FY 2004, firm up requirements for the
    Airborne Laser Mine Detection System by:

           1. Reassessing and validating the assumptions associated with
    related acquisition programs and other mine countermeasure systems used
    to determine requirements for the Airborne Laser Mine Detection System.

           2. Determining the viability and cost-effectiveness of transferring, or
    cross-decking, Airborne Laser Mine Detection System assets between
    deployed and nondeployed ships.

    Management Comments. The Deputy Chief of Naval Operations (Warfare
    Requirements and Programs) concurred with the intent of the recommendations,
    stating that the Navy intends to review and revalidate the ALMDS Operational
    Requirements Document, including procurement quantities, in the normal course
    of preparations for the planned FY 2004 Milestone III decision. As part of the
    revalidation process, the Navy will examine the potential cost-effectiveness of
    initially transferring or cross-decking ALMDS between deployed and
    nondeployed ships.




                                       9
Appendix A. Audit Process

Scope
    We conducted this audit from July 2000 through February 2001, and reviewed
    documentation dated from April 1992 through February 2001. We used criteria
    in DoD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
    Acquisition Programs (MDAPs) and Major Automated Information System
    (MAIS) Acquisition Programs,” Change 4, May 11, 1999, to perform the audit.
    To accomplish the audit objectives, we took the following steps:

           •   determined whether the users had adequately defined the system
               requirements;

           •   determined whether the program office had developed and
               implemented an acquisition plan, a risk management plan, a logistics
               plan, and a test and evaluation plan;

           •   evaluated Defense Contract Management Command involvement in
               monitoring the contractor’s earned value management process;

           •   evaluated the program office’s management of the prime contract for
               the program;

           •   determined whether the program office had a fully developed,
               programmatic, environmental, safety, and health evaluation;

           •   assessed the program office’s implementation of the DoD
               environmental management process;

           •   determined whether the program office had prepared a life-cycle cost
               estimate for the program;

           •   evaluated program office use of integrated product teams; and

           •   reviewed management controls related to the audit objective.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals, and
    subordinate performance goals. This report pertains to achievement of the
    following goal and subordinate performance goal.

           •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-02)


                                        10
           •   FY 2001 Subordinate Performance Goal 2.4: Meet combat forces’
               needs smarter and faster, with products and services that work better
               and cost less, by improving the efficiency of DoD’s acquisition
               process. (01-DoD-2.4)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Weapons System Acquisition high-risk area.

Methodology
    We conducted this program audit in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD, and included such tests of management controls as we
    deemed necessary. We did not use computer-processed data to perform this
    audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD and contractor locations. Further details are
    available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with Interim DoD Regulation 5000.2-R, January 1, 2001, acquisition managers
    are to use program cost, schedule, and performance parameters as control
    objectives to implement the requirements of DoD Directive 5010.38.
    Accordingly, we limited our review to management controls directly related to
    those elements of the ALMDS program. Because we did not identify a material
    weakness, we did not assess management’s self-evaluation.

    Adequacy of Management Controls. The Program Executive Office for Mine
    Warfare’s management controls were adequate in that we identified no material
    management control weakness.

Prior Coverage
    During the last 5 years, no reports have been issued related to the Airborne
    Laser Mine Detection System.




                                       11
Appendix B. Definitions of Technical Terms
   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the program’s level of review, decision authority, and
   applicable procedures. Weapon system acquisition categories consist of I, major
   Defense acquisition programs; II, major systems; and III, all other acquisition
   programs. Acquisition category I programs include two subcategories:
   acquisition category ID programs where the milestone decision authority is the
   Under Secretary Defense for Acquisition, Technology, and Logistics, and
   acquisition category IC programs where the milestone decision authority is the
   Component acquisition executive. The Component acquisition executive is the
   milestone decision authority for all acquisition category II programs.

   Acquisition Phase. An acquisition phase represents all the tasks and activities
   needed to bring a program to the next major milestone. Phases provide a logical
   means of progressively translating broadly stated mission needs into well-
   defined, system-specific requirements and, ultimately, into operationally
   effective, suitable, and survivable systems.

   Engineering and Manufacturing Development. Engineering and
   manufacturing development is the third phase of the acquisition process where
   the program office and its contractors fully develop, engineer, design, fabricate,
   test, and evaluate the systems and the principal items necessary for its support.

   Full-Rate Production. Full-rate production is contracting for economic
   production quantities following stabilization of the system design and validation
   of the production process.

   Milestone. A milestone is the point where the milestone decision authority
   decides whether to start or continue an acquisition program in the acquisition
   process.

   Milestone Decision Authority. A milestone decision authority is the individual
   designated in accordance with criteria established by the Under Secretary of
   Defense for Acquisition, Technology, and Logistics to approve entry of an
   acquisition program into the next phase.

   Mine Countermeasure. A device or tactic designed to negate or offset a mine.




                                       12
Appendix C. Airborne Mine Countermeasure
            Systems
   The Navy is developing the ALMDS, as one of a suite of five airborne mine
   countermeasure systems, to negate mine threats based on the depth of the mine,
   the density of the minefield, and the conditions of the surrounding water.
   Following is a brief description of the other four airborne mine countermeasure
   systems in that suite.

           AN/AQS-20/X Sonar. The AN/AQS-20/X Sonar is a helicopter-towed,
   single-pass, minehunting detection, classification, and identification sonar. The
   sonar identifies mine-like objects under the water, but is not designed to identify
   near-surface mines.

           Organic Airborne and Surface Influence Sweep. The Organic
   Airborne and Surface Influence Sweep is a magnetic and acoustic influence
   minesweeping system. The sweep system is used where environmental
   limitations inhibit mine hunting.

          Airborne Mine Neutralization System. The Airborne Mine
   Neutralization System is a helicopter deployed, expendable, remotely operated,
   mine neutralization system that reacquires previously identified mines or locates
   mine-like objects. Military personnel navigate the system using on-board
   propulsion and cameras. The operator locates the mines or mine-like objects
   and uses the Airborne Mine Neutralization System to detonate or otherwise
   destroy them. However, the associated ordnance is also destroyed when the
   mine or mine-like object is neutralized.

           Rapid Airborne Mine Clearance System. For ALMDS-detected,
   near-surface, mines, the Rapid Airborne Mine Clearance System provides
   neutralization capabilities by firing a supercavitating projectile at the objects
   from a helicopter. Like the Airborne Mine Neutralization System, the Rapid
   Airborne Mine Clearance System is used to neutralize previously identified
   mines. However, the Rapid Airborne Mine Clearance system can only be used
   at limited depths because of water penetration constraints.




                                       13
Appendix D. Carrier Groups and Amphibious
            Groups

Carrier Groups
         Composition of a Carrier Group. A Carrier Group is a highly balanced mix
         of ships and aircraft capable of conducting a variety of missions including strike
         operations, humanitarian assistance, sea control, and power projection. A
         Carrier Group generally consists of an aircraft carrier, two cruisers, three
         destroyers, two frigates, two submarines, and a supply ship.

         Availability. The Navy has 12 aircraft carriers that serve as the focal point of a
         Carrier Group. The maintenance schedule for the 12 aircraft carriers showed
         that, through FY 2008, 9 carriers, on average, are available for deployment at
         any given time. The remaining three aircraft carriers are out of service for
         refueling or incremental maintenance. Although two of the remaining three
         carriers can be deployed on short notice, this condition would only occur in an
         emergency scenario.

Amphibious Groups
         Composition of an Amphibious Group. An Amphibious Group is a Naval
         expeditionary force consisting of an amphibious squadron normally composed of
         three ships with an embarked Marine Expeditionary Unit.∗ Amphibious Groups
         possess the ability to rapidly project forces ashore by land or sea. Forward-
         deployed Amphibious Groups provide the Commanders in Chief with a wide
         array of capabilities to include sustained maritime presence, rapid crisis
         response, humanitarian relief, peace support, and amphibious forcible entry.

         Availability. The Navy has 11 large deck amphibious ships each serving as the
         focal point of an Amphibious Group. The deployment schedule of the 11
         Amphibious Groups showed that for 2000 and 2001, only 3 Amphibious
         Groups, on average, were scheduled for deployment or were in transit at any
         given time. The other eight Amphibious Groups were used in training or out-
         of-service for maintenance. Unlike the carriers, none of the Amphibious Group
         lead ships were scheduled for long maintenance cycles, therefore, all were
         available for deployment on short notice.




∗
 A Marine Expeditionary Unit is an intervention force with the ability to move quickly on short notice to
 wherever it is needed to accomplish conventional or special operations.




                                                   14
Appendix E. Audit Response to Navy Comments
            Concerning the Report
    Our detailed responses to the comments of the Deputy Chief of Naval
    Operations (Warfare Requirements and Programs) on statements in the draft
    report follow. The complete text of those comments is in the Management
    Comments section of this report.

Management Comments on the Overall Report and Audit
 Response
    Management Comments. The Deputy Chief of Naval Operations (Warfare
    Requirements and Programs) stated that the Navy’s CH-60S helicopter was
    redesignated as the MH-60S multi-mission helicopter effective February 6,
    2001.

    Audit Response. We revised the report to reflect the new helicopter
    designation.

Management Comments on the Finding and Audit Response
    Management Comments. The Deputy Chief of Naval Operations (Warfare
    Requirements and Programs) partially concurred with the finding, stating that
    although the final ALMDS procurement levels would be revalidated prior to the
    planned FY04 Milestone III production decision, the Navy’s current Future
    Years Defense Program fully funds required ALMDS quantities. The Deputy
    Chief stated that the requirement was based on recommendations contained in
    the CNA “MCM [Mine Countermeasures] Force-21 Study Final Results,”
    which provides an initial quantitative assessment of future Mine Countermeasure
    warfighting requirements. He continued by stating that only after the Navy’s
    annual Integrated Warfare Architecture review process, completion of the
    Operational Test and Evaluation, and initial fleet introduction, could the Navy
    properly develop the comprehensive number of ALMDS units required to meet
    warfighting requirements. The Navy remains confident that the current estimate
    of 42 ALMDS will meet future Mine Countermeasure requirements.

    Audit Response. The comments of the Deputy Chief of Naval Operations
    (Warfare Requirements and Programs) were responsive; however, the
    statement that the required ALMDS quantities are fully funded in the Future
    Years Defense Program depends on a requirements calculation that is based on
    unvalidated assumptions. Although the Office of the Deputy Chief of Naval
    Operations (Warfare Requirements and Programs) used the CNA study as a
    basis, the assumptions used in the study need to be reassessed and validated.
    Additionally, the CNA study did not consider transferring ALMDS assets
    among deployed and nondeployed ships.




                                      15
Management Comments Addressing the Main Body of the
 Report and Audit Response
    Management Comments. The Deputy Chief of Naval Operations (Warfare
    Requirements and Programs) did not concur that additional ALMDS would be
    required should the Organic Airborne and Surface Influence Sweep Program fail
    to meet its threshold performance requirements. The Deputy Chief explained
    that the Organic Airborne and Surface Influence Sweep addresses bottom-
    influence-activated mines that are positioned on the sea floor while ALMDS
    addresses near-surface influence and contact-moored or buoyant sea mines. He
    stated that because each system operates in a distinct operational environment
    against different sea threats, the failure of one does not correlate into a
    requirement to procure more of the other.

    Audit Response. Information provided by Deputy Chief of Naval Operations
    (Warfare Requirements and Programs) personnel described the Organic
    Airborne and Surface Influence Sweep Program as a magnetic and acoustic
    minesweeping system to be used in shallow water. Until the Organic Airborne
    and Surface Influence Sweep is developed and tested, its effect on influence-
    activated mines within the ALMDS range is unknown. It is possible that the
    Organic Airborne and Surface Influence Sweep could detonate influence-
    activated mines close to the surface and would reduce the need for additional
    ALMDS missions. Conversely, if the sweep does not meet its requirements in
    very shallow water, additional ALMDS missions requiring additional ALMDS
    units may be needed.

    Management Comments. The Deputy Chief of Naval Operations (Warfare
    Requirements and Programs) disagreed that, in the event of two, near
    simultaneous major theater wars, the Navy may not need all Carrier and
    Amphibious Groups to have organic mine countermeasure capabilities. The
    Deputy Chief stated that guidance from the Secretary of Defense and the Chief
    of Naval Operations mandates that mine warfare become a core competency
    within the Carrier Battle Group force structure, which would require each
    Carrier Battle Group to effectively counter the potential threat posed by sea
    mines. Additionally, the Deputy Chief stated that dedicated mine
    countermeasure forces will not be available to support the Carrier Battle Groups
    because they will likely be assigned responsibilities independent of dedicated
    assets in other littoral areas hundreds of nautical miles away.

    Audit Response. Mandating mine warfare as a core competency for Carrier
    Battle Groups does not automatically establish a requirement for ALMDS or a
    specific number of ALMDS units per Battle Group, nor does it establish a
    requirement to equip Amphibious Groups with the mine warfare capabilities.
    Additionally, when asked about the need for dedicated forces once the organic
    forces were integrated into the fleet, the Deputy Chief of Naval Operations
    (Warfare Requirements and Programs) personnel stated that the dedicated forces
    would be used to clear mine fields after the organic forces had cleared an initial
    path for the Carrier or Amphibious Groups. Therefore, to say that the dedicated
    forces will not be available to support Carrier Battle Group operations and may




                                        16
be operating in littoral areas hundreds of nautical miles away, contradicts the
Navy’s rationale for keeping dedicated forces after the organic forces have been
integrated.




                                   17
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Acquisition, Technology, and Logistics

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
  Program Executive Office for Air Anti-Surface Warfare Assault and Special
      Missions Programs
  Program Executive Office for Mine and Undersea Warfare
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Deputy Chief of Naval Operations (Warfare Requirements and Programs)
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Technology and Procurement Policy
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                         19
Deputy Chief of Naval Operations (Warfare
  Requirements and Programs) Comments




                      20
___________________________________________________________________




                             21
___________________________________________________________________




                             22
___________________________________________________________________




                             23
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Mary L. Ugone
John E. Meling
Douglas P. Neville
Amy L. Schultz
Kevin B. Palmer
Lidet K. Negash
